t3W

No. 20

IN THE
SUPREME COURT OF THE UNITED STATES
LAHKWINDER SINGH
Petitioner

V.
UNITED STATES OF AMERICA!
Respondent

On Petition for A Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

filed
MAR 1 9 2020
s5pREMEFOnifR^t?.K

LAHKWINDER SINGH
Register Number: 55578-298
Petitioner Pro1Se
Federal Prison Camp
Lompoc
3705 West Farm Road
Lompoc, California
Zip Code: 93436

RECEIVED
MAY 2 2 2020
OFFICE OF THE CLERK
SUPREME COURT! IQ

QUESTIONS PRESENTED
I.

II.

Whether this Court should resolve the conflict between the
circuits regarding whether the 'deprivation of livelihood'
should be included in the proportionality analysis when de­
termining whether a forfeiture meets the constitutionality
requirements of the Eighth Amendment's ban on Excessive
Fines?
Whether the proportionality analysis under the Excessive
Fines clause should include a fact specific' evaluation
of the circumstances of a criminal act to include the factors of: 1) Negligence, 2) Recklessness, 3) Knowledge,
4) Intent, and 5) Maliciousness, to determine the extent
of the defendant's level of participation, knowledge of
the crime, and his degree of culpability to ensure the
. amount of forfeiture bears a relationship to the criminal
activity?

III.

Whether the amount of forfeiture ordered in a financial
structuring offense should be proportional to the ratio of
legitimate funds structured, as compared to the amount of
funds tainted by other criminal act(s), that resulted in
minimal, or no, illegal gain, to meet the constitutional
requirements of the Eighth Amendment?

IV.

Whether the proportionality analysis under the Excessive
Fines Clause should require a relationship between: 1)
the ratio of the sentence imposed, as compared to the up­
per limit of either the Guideline recommendation, or the
applicable Statute; and 2) the amount of forfeiture or­
dered as compared to the amount of funds structured?

i

PARTIES TO THE PROCEEDINGS
Petitioner, Lahkwinder Singh, was the Defendant in the United
States District Court for the Southern District of California, in
the USDC Case 16-cr-i729-BAS, Appellant in the United States Court
of Appeals for the Ninth Circuit in USCA Case 18-50332, and was
the Pro I Se Appellant in the United States Court of Appeals for

i

»

the Ninth Circuit in a request for a Rehearing in USCA 18-50332.
Respondent,- United States of America was the named Plaintiff
in the United States District Court for the Southern District of
Caiifornia, in the USDC Case 16-cr-729-BAS, and Appellee in the
United States Court of Appeals for the Ninth Circuit in USCA Case
18-50332.
No other relevant parties are.represented in the instant

i

action.

!■

I
J1
i

%

i

11
I

y

4
V

4

ii

.i

1

Jr. __ ‘ > s

TABLE OF CONTENTS
DESCRIPTION

PAGE

STATEMENT OF THE CASE
V.

APPELLATE COURT DECISIONS

15

A.

THE INITIAL APPEAL

15

1.

NATURE OF THE CRIME

16

2.

OTHER ILLEGAL ACTIVITIES

3.

PUNISHMENT AND FINE PRESCRIBED

16

4.

EXTENT OF THE HARM

17 •

B.

THE REQUEST FOR REHEARING

'

16

18

SUMMARY OF THE ARGUMENT

21

ARGUMENT

22

I.
II.

REASONS FRO GRANTING THE WRIT

22

ARGUMENTS TO THE QUESTIONS PRESENTED

23

A.

DEPRIVATION OF LIVELIHOOD

23

B.

PROPORTIONALITY ANALYSIS
FACT SPECIFIC EVALUATION

27
27

C.

PROPORTIONALITY ANALYSIS
EXTENT OF CRIMINAL ACTIVITY

30
30

D.

PROPORTIONALITY ANALYSIS
RATIO OF SENTENCE IMPOSED

33
33

CONCLUSION

37

iv

INDEX OF APPENDICES
Appendix - A
Order of the United States Court of Appeals for the Ninth
Circuit, dated 5 November 2019, Affirming District Court

A-l

Appendix - B
Order of the United States Court of Appeals for the Ninth
Circuit, dated 15 January 2020, Denying Rehearing Request

A-2

Appendix - C
Plea Agreement for Defendant Lahkwinder Singh, Case Number
16-cr-0729-BAS, dated 18 October 2017, Pages 1 through 15

A-3

Appendix - D
Forfeiture Addendum for Defendant Lahkwinder Singh,, dated
31 October 2017, Pages 1 through 4, signed 18 October 2018

A-4

Appendix - E
Sentencing Hearing Transcript, United States District Court
for the Southern District of California, for Defendant
Lahkwinder Singh, Case Number 16-cr-0729-BAS, 7 September
2018, selected pages

A-5

Appendix - F
Appellant's Opening Brief in the United States Court of
Appeals for the Ninth Circuit, Selected pages

v

A-6

TABLE OF AUTHORITIES
Federal Cases

Page(s)

United States v. Bajakajian
524 U.S. 321 (1998)
United States v. Hantzis
403 F.App'x 170 (9th Cir. 2010)
United States v. Levesque
546 F.3d 78 (1st Cir. 2008)
United States v. Busher
817 F.2d, 1409

Passim
16, 23, 24
16, 23, 25
20, 31, 32, 33

United States v. Bieri
21 F.3d, 819 (8th Cir. 1993)
Solem v. Helm
463 U.S. 277
United States v. Umagat
998 F.2d 770 (9th Cir. 1992)
United States v. Bibbero
749 F.2d 581 (9th Cir. 1984)
United States v. El Dorado
59 F.3d 974 (9th Cir. 1995)
United States v. Smith
656 F.3d 821 (8th Cir. 2011)
United States v. Dieter
198 F.3d 1284 (11th Cir. 1999)
United States v. Fogg
666 F.3d 13 (1st Cir. 2011)
United States v. Heldemen
402 F.3d (1st Cir. 2005)
United States v. Jose
499 F.3d 113
United States v. Viloski
814 F.3d (2nd Cir. 2016)
Rummel v. Estelle
445 U.S. 263 S.Ct. 1133 (1980)

20
20, 27, 28, 32
20
20
23
24
24
25
25
25
25, 26
27

vi

TABLE OF AUTHORITIES
Federal Statutes

Page(s)

28 U.S.C. § 1254(1)
21 U.S.C. § 841(a)(1)
21 U.S.C. § 846
21 U.S.C. § 841
31,U.S.C. § 5324(a)(1), (d)(2)
31 U.S.C. § 5324(d)(2)
31 U.S.C. § 5324(a)(3)
31 U.S.C. § 5317(c)(1)
18 U.S.C. § 3571(b)
18 U.S.C. § 1961
18 U.S.C. § 1962
18 U.S.C. § 1963
18 U.S.C. § 1341
18 U.S.C. § 1001
18 U.S.C. § 287
26 U.S.C. § 7201
26 U.S.C. § 7206(1)

1, 4
2, 7
2, 7
8
2, 7
3
3:, 7, 30
4, 7, 31, 32
16
31
31
31
32
32
32
32
32

United States Constitution
Eighth Amendment

1, 21, 25, 26

United States Sentencing Guidelines
U.S.S.G. 5E1.2(c)(3)(2014)

17

vii

OPINIONS BELOW
Mr. Singh, and his Co-defendant, Lovely Singh, a Corporation,
agreed in a Plea Agreement to forfeit $2,955,521 which represented
100 percent of all funds structured in a currency structuring of­
fense which he pled guilty to.

The District Court ordered Mr.

Singh to forfeit $1,955,521., and Lovely Singh to forfeit $1,000,000
for a total of $2,955,521.

Within the structure of the Plea Agree­

ment, Mr. Singh reserved the right to challenge the forfeiture as
excessive under the Eighth Amendment.in the Appellate Court.
The unpublished memorandum disposition of the United States
Court of Appeals for the Ninth Circuit can be found at USCA Case
18-50332.

See; Appendix A, pages 1 through 4. Forfeiture Affirmed.

The unpublished Order of the United States Court of Appeals
for the Ninth Circuit can be found at USCA Case 18-50332.
Appendix B, page 1 of 1.

See;

Request for Panel Rehearing Denied.

STATEMENT OF JURISDICTION
This Court has jurisdiction under 28 U.S.C. Section 1254 (1).
The Ninth Circuit entered its final Order affecting the tolling of
this Petition 15 January 2020, and this Petition was filed within
90 days of that order.

See; Appendix B, Page 1 of 1, Appellate

Court Order; and See; Petitioner's Certificate of Service

I.

CONSTITUTIONAL & STATUTORY
PROVISIONS INVOLVED
CONSTITUTIONAL PROVISIONS
This case involves a,federal criminal defendant's consti­
tutional rights under the Eighth Amendment to the Consti-

1

tution.

The Eighth Amendment states:

Excessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishment in­
flicted.

II.

STATUTORY PROVISIONS - CRIMINAL
A.

21 U.S.C. Section 841(a)(1)

[Prohibited Acts A]

This case involves the application of 21 U.S.C.
Section 841(a)(1), which states:
(a) Unlawful Acts
"Except as authorized by this subchapter, it
shall be unlawful for any person knowingly or
intentionally(1) to manufacture, distribute, or dispense,
or possess with intent to manufacture,
distribute, or dispense, a controlled
substance"
B.

21 U.S.C. Section 846 [Attempt & Conspiracy]
This case also involves the application of 21 U.S.
C. Section 846, which states:
"Any person who attempts or conspires to commit any
offense defined in this subchapter shall be subject
to the same penalties as those prescribed for the
offense, the commission of which was the object of
the attempt or Conspiracy."

C.

31 U.S.C. Section 5324(a)(1), (d)(2)
[Structuring Transactions to evade reporting re­
quirement prohibited]
This case also involves the application of 31 U.S.
C. Section 5324 (a)(1) which states in pertinent
part:
(a)

Domestic Coin and Currency transactions invol­
ving financial institutions"No person shall, for the purpose of evading

2

the reporting requirements of section 5313(a)
or 5325 ... the reporting or recordkeeping
requirements imposed by any order issued (1) Cause of attempt to cause a domestic
financial institution to fail to file a re­
port required under section 5313(a) or 5325
or any regulation prescribed under an sec­
tion, to file a report or to maintain a re­
cord required ..."
This case also involves-the application of 31 U.S.
C. Section 5324 (d)(2) which states in pertinent
part:
(d)

Criminal Penalty
(2) Enhanced penalty for aggravated cases Whoever violates this section while violating
another law of the United State's or as part of
a pattern of any illegal activity involving
more than $100,000 in a 12 month period shall
be fined twice the amount provided ... im­
prisoned for not more than 10 years, or both."

D.

31 U.S.C. Section 5324(a)(3)
[Structuring Trans­
actions to evade reporting requirement prohibited]
This case also involves the application of 31 U.S.
C. Section 5324 (a)(3) which states in pertinent
part:
(a)

Domestic Coin and Currency transactions invol­
ving financial institutions"No person shall, for the purpose of evading
the reporting requirements of section 5313(a)
or 5325 ... the reporting or record keeping
requirements imposed by any order issued (3) Structure or assist in structuring, or at­
tempt to structure or assist in structuring,
any transaction with one or more domestic fin­
ancial institutions."

3

E.

31 U.S.C. Section 5317(c)(1)
[Search and forfeiture of monetary instruments]
This case also involves the application of 31 U.S.
C. Section 5317(c)(1) which states in pertinent
part:
(c) Forfeiture (1)

Criminal Forfeiture
(A)

In general -

"The court in imposing sentence for any
violation of section ... 5324 of this title
or conspiracy to commit such a violation,
shall order the defendant to forfeit all
property, real and personal, involved in
the offense and any property traceable
thereto."
(B)

Procedure

"Forfeitures under this paragraph shall be
governed by the procedures established in
section 413 of the Controlled Substances
Act."

III.

STATUTORY PROVISIONS - JUDICIAL
A.

28 U.S.C. 1254(1)
This case involves the application of 28 U.S.C. Sec­
tion 1254 (1), which states in pertinent part:
"Cases in the Courts of Appeal must be reviewed by
the Supreme Court by the following method:"
(1) "By Writ of Certiorari granted upon the pe­
tition of any party to any civil or criminal
Case, before or after rendition of judgment or
decree."

I.

STATEMENT OF THE CASE
ISSUE PRESENTED
4

The Petitioner, Lahkwinder Singh, pled guilty to one
count of structuring currency transactions and received a 36
month sentence and was ordered to forfeit $1,955,521.

This

amount, together with a $1,000,000 forfeiture ordered against
his corporation:, and co-defendant, Lovely Singh, Inc • $ represents 100 percent of the funds involved in the structured
transactions.

Only a very.small fraction of these funds re­

presented proceeds received for the shipping of controlled
pharmaceutical drugs that had been smuggled into the United
States from Mexico by a small group of Mexican nationals who
operated an organization that the Defendant did not belong to.
The Excessive Fines Clause of the Eighth Amendment to
the United States Constitution requires that a forfeiture not
be grossly disproportional to the gravity of the offense.

This

Court, the Ninth Circuit, and its sister circuits have provided
case precedent that have established guidelines to determine
this issue with numerous references that each case is unique
and must be independently evaluated based on the facts presen­
ted.
Singh appeals the District Court's order that he forfeit
$1,955,521 and contends the amount of forfeiture imposed is ex­
cessive under the Eighth Amendment to the Constitution, which
is designed to limit the power of the Government to impose pun­
itive sanctions that exceed an acceptable threshold, as this
forfeiture does.

5

II.

FACTS AND PROCEEDINGS OF THE CASE
In 2012, federal agents began investigating the flow'of

Controlled Pharameceutical Drugs (CPD's) from Mexico into the
United States and then shipped across the United States from
various border..area locations, to include in and around the
greater San Diego Metropolitan vicinities.

On one particular

day, agents intercepted one female individual who was employed
by a Mexican drug organization to carry pre-packaged CPD's into
San Diego for further shipment to other domestic locations.
At the time, the Defendant operated two Postal Annexes
in the San Diego area; One was in the Lemon Grove area which
Singh had owned and operated since 2000.

Another Annex had been

acquired in the College Grove area (Re; the University Avenue
Site) in 2009 which was operated by an employee, Alex Nava (Re;
'Nava'), who hhd been hired to manage this site from the date it
opened until it closed in 2014.

It was during a two (2) year

period (2012 to 2014) the criminal investigation began.
Upon questioning, the female courier informed the agents
that the CPD's she carried were destined for the University Ave­
nue Postal Annex operated by Nava, who was her contact,
courier made.no reference to Mr. Singh,

The

This one courier, and

the CPD's she carried, was the only time the Government explic­
itly knew, or had proof, of any drug activity being shipped by
an employee of Singh's through the University Avenue Postal Annex.

6

On 9 March 2016, Singh was arrested and subsequently
charged in a Second Superseding Indictment with the following
violations:
Count
1

Description
21 USC §§ 841(a)(1) and 846

2-5

31 USC §§ 5324(a)(1) and (d)(2)

6

31 USC §§ 5324(a)(3) and (d)(2)

The Second Superseding Indictment also included a criminal for­
feiture allegation seeking forfeiture of all property (proceeds)
involved in the offenses under 31 USC § 5317(c)(1).

One employ .

yee, Alex Nava, was named as a co-defendant on all counts, and
Singh's closely held corporation, Lovely Singh, Inc •

r

was named

as a co-defendant in counts 2 through 6.
Singh pled guilty to Count number 6, Structuring Currency
Transactions, and admitted to structuring $2,955,521 during an
approximate two year period between December 2011 and January
2014.

In addition, a 'Forfeiture Addendum

to the Petitioner's

Plea Agreement specified Singh's conviction would include a
forfeiture of $2,955,521 with the right of the Defendant to
contest said forfeiture on the ground the forfeiture constitutes
an excessive fine under the Eighth Amendment to the United States
Constitution.

See; Appendix C, Plea Agreement, Lahkwinder Singh,

Pages 1 - 15.

See; Appendix D, Forfeiture Addendum, Lahkwinder

Singh, Pages 1-4.

At sentencing, the District Court ordered

Mr. Singh to forfeit $1,955,521 and Lovely Singh $1,000,000.

7

III.

THE PLEA AGREEMENT
A.

THE OFFENSE WAS STRUCTURING

This Honorable Court is aware that in addition to the
Financial Structuring Offense, which the Defendant pled guilty
to, the Defendant was also charged with one count of Conspiracy
to Distribute a Schedule II Controlled Substance under 21. U.S.C.
§ 841.

The Defendant rejected the Government's allegation that

he was involved in any drug activity and as a result the Govern­
ment dismissed all charges associated with drugs under § 841.
Believing the issue relating to drug conduct was settled, the
Defendant agreed to the plea offer.
However, within the Government prepared plea agreement
there were recurring instances where the prosecution repeatedly
attempted to associate the defendant with the drug conspiracy
through inaccurate, vague and misleading commentary which was
inconsistent with the facts.agreed upon and often contradicted
other elements within the plea agreement.

At a minimum, the

Government had also nuanced elements within the agreement to
suggest either the Defendant had knowlingly participated, was
aware of a high probability of the drugs, or he knew or believed
the proceeds from certain parcels were unlawful.
C:

See; Appendix

Plea Agreement for the following references:
1.

Page 3 of the plea, element 5, lines 26
28
"Beginning on an unknown date • • . Singh and Nava distributed Schedule II controlled substances from Postal An­
nexes to persons located throughout the United States
(the "Purchasers". • •

8

C:

Plea Agreement
1.

2.

Page 3 of the plea, element 5, lines 26
28
While it may be true that the Defendant would on occa­
sion assist his employee, Nava, at the University Ave­
nue Annex, and therefore, could have shipped some of
the pre-packaged parcels alleged to have GPDs, it is
the assertion of the defendant that he had [NO] know­
ledge the parcels contained a controlled substance.
Page 4 of the plea, element 7, lines 11
13

3.

"Singh was aware of a high probability that the hun­
dreds of packages sent from the Postal Annexes contain­
ed a prohibited controlled substance, and he deliberate­
ly avoided learning the truth of their contents."
It is true that Singh was aware of the probability that
drugs were being shipped through legal venues like his
Postal Annexes, Federal Express, United Parcel, and
even the U.S. Postal Services. His awareness came from
the evening news, bulletins from UPS and the Post Office
and alerts from Homeland Security. However, he was not
aware whether any specific drugs were being sent through
his Annexes and he had no authority to open any for an
inspection. This explanation is completely opposite
the inferences made by the Government in their attempt
to nuance the wording of the plea agreement.
Page 6 of the Plea, element 16, lines 3
7
"In light of Singh's role as the packager and shipper of
hundreds of packages ... and the person who conducted
all of the structured cash deposits ... Singh knew or be­
lieved that the funds were proceeds of unlawful activity
or were intended to promote unlawful activity."
This element was referenced as one of the reasons the
Defendant was aware of the packages contents and was
structuring to hide drug proceeds. However, elements 5
and 6 of the plea agreement contradicts the Government
assertion that Singh was a packager, and therefore he
must have known the contents of the parcels. Singh was
not the packager. Singh only added labels to pre-pack­
aged parcels received by his Annex.
The plea's reference to 'Singh knew or believed' is an­
other example of the Government's nuanced word play in
their attempt to construe something that is false and
misleading to the reader. Singh interpreted this to
mean the unlawful proceeds were a reference to his
structuring of funds. The Government would have the
reader believe it was CPDs shipping fees as the source.

$

B.

SUMMARY - PLEA

The Plea Agreement, crafted by the Government Prosecu­
tion, provide examples of the Government's efforts to discredit
the Defendant with conduct beyond the Structuring Offense he
had agreed to plead to.

The Government tries to accomplish

this through willful distortions of the facts, half truths ta­
ken out of context in order to suggest a mere 'possibility' of
an allegation which was never proven by the Government, and
ambiguous references that were contradicted by other element
statements of fact.
Sadly, this scornful and abusive tactic was used by the
Government as a ploy to support their earlier allegations that
the Defendant was an active participant in the drug shipment
scheme.

Allegations they could not prove in Court, but were

useful to increase the severity and culpability of the Defen­
dant's actions in the Structuring Offense and could then be
used as an enhancement in the forfeiture proceeding.

IV.

THE SENTENCING HEARING
The Sentencing Hearing included a review of the pertinent

issues which are summarized below:
A.

THE DEFENDANT'S ROLE

As already noted, throughout the period of the Govern­
ment's investigation the controlled CPD substances were being
shipped through the Postal Annex on University Avenue, which was
managed and operated by Alxe Nava, the individual who was an

io-

employee of Mr. Singh.

There is no proof that any controlled

substances of any kind were being shipped through the Annex
operated by the Defendant during the period of the investiga­
tion (i.e. the Lemon Grove Annex).

Mr. Singh's only role was

to pick the daily cash receipts twice each day for deposit in­
to a bank account, and to help operate the University Avenue
Annex (where the CPDs were shipped) in the rare time that the
manager, Alex Nava, was away from the store.
The following are excerpts from the Sentencing•Hearing,
found in Appendix E:
1.
2.

"Mr. Nava promarily ran the College Grove Postal
Annex." Page 5, Lines 10 & 11. Defense Counsel
"but for Mr. Nava, there would have been no pills
that ever went through the Postal Annex. All the
connections to the pills were directly related to
Mr. Nava's connections to Mexico." Page 5, lines
20 to 23. Defense Counsel

3.

"we know for a fact that Mr. Singh didn't know ex­
actly what was in these packages" Page 13, lines
2 & 3. Defense Counsel

4.

"it was based on what we were able to seize. On
one point in time one courier was coming across,
and she was caught." Page 40, lines 6 to 8.

5.

"That was just one courier on one day..." Page
40, lines 12 & 13. Prosecution
"And those were the only drugs that we actually
seized." Page 40, lines 14 & 15. Prosecution
"in 2008 when Mr. Nava was hired by Mr. Singh, and
what Mr. Nava would say and what he told the agents
was that shortly after he was hired, he was appro­
ached by these two individuals, Garcia and Dicianno
and these people were connected to people that Mr.
Nava knew in Mexico, and also other people were
arrested that Mr. Nava had known__ " Page 41, lines
20 to 25. Defense Counsel

11

B.

THE STRUCTURING OFFENSE

The Government has suggested that Mr. Singh's Financial
Structuring was to hide the receipt of the minimal funds his
Annex had received for the shipment of the CPDs.

However, the

record clearly reveals that the financial structuring Singh has
admitted to began years before when he became a Western Union
agent.
The following excerpts are from the Sentencing Hearing,
found in Appendix E:
1.

"Defendant Singh began operating the Postal Annex
as licensed money transmitting businesses in 2006
as an agent of Western Union. And that's when he
became educated on the fact that you had these re­
porting requirements for amounts over $10,000.
This amounted to thousands of dollars from these
people that Mr. Singh had to put into the bank,
and that was what resulted in the structuring."
Page 7, lines 10 to 14 and lines 18 to 20.
Defense Counsel.

2.

"If people were coming in with vitamine C pills,
aspirin [instead of CPDs] ... Mr. Singh would have
still been structuring money." Page 13, lines 12
to 14. Defense Counsel
"There was never one pill shipment payment that
there is any evidence caused a structured deposit.
We know that they were at most 2,000 to $2,500 in
one day." Page 13, lines 17 to 19. Defense
"The structuring exists before the pills arrived.
So, I can't emphasize strongly enough, Your Honor,
that this is a structuring case, not a drug dis­
tribution case and that the pill shipments were
not the reason for or the motivation behind struc­
turing." Page 14, lines 10 to 15. Defense Counsel.

'3.

4.

C.

PROPORTIONALITY - PROFITS & PROCEEDS

One of the most important aspects of this case involves
the issue of proportionality.

The culpability of the Defend-

12

ant and the severity of the crime are supposed to be guiding
criteria when determing the amount of funds to forfeit.

There

should be a corresponding relationship between these factors.
The following excerpts are from the Sentencing Hearing,
found in Appendix E:
1.

"He pled guilty to structuring. He did not plead
guilty to a drug count. And when you look at
structuring from a forfeiture standpoint, i.e., is
the forfeiture grossly disproportional to the con­
duct of the defendant ..." Page 10, lines 8 to 11,
Defense Counsel.

2.

"there was approximately $4 million roughly that
went into the two accounts, most of which was money
transmissions or money orders. It was money that
fleetingly passed through the account..." Page 11
lines 1 to 4, Defense Counsel

3.

"in 2012 the corporation had a profit of $23,000,
and in 2013 it was about $50,000. So we're talk­
ing about $75,000 profit over the two years walk­
ing him into a $2.9 million forfeiture. Page 11
lines 10 to 13. Defense Counsel.
"If we count every single shipment from the San
Diego office as a pill shipment, that's 9 percent
of all the deposits over those two years. And I
submit there were packages that didn't contain
pills. Page 14, lines 4 to 7. Defense Counsel.
"and part of the problem I have is I'm not sure
it's clear from the record that this was a gain to
Mr. Singh." Page 31, lines 13 & 14, Court (judge)
discussing the $2.9 million forfeiture requested
by the Government.
"90 percent of the money that was being structured
was legitimate money that did not even — most of
it did not even belong to Mr. Singh, but rather
went to pay rent and utility bills." Page 44,
lines 22 to 25. Defense Counsel.

4.

5.

6.

7.

"looking at it in light most favorable to the govern­
ment, we have a maximum senting Guideline fine of
$200,000. We have a maximum statutory fine of 500,
000. They're (Government) asking for $3 million.
That's 15 times the max guideline fine, Page 15
lines 23 to 25, Page 16, lines 1 & 2. Defense.

13

D. SENTENCE IMPOSED
The District Court made two factual findings regarding
the case which influenced the judge's decision.with respect to
sentencing.
The following excerpts are from the Sentencing Hearing
found in Appendix E:
1.

"First of all, I find that the reason for the Struc­
turing was to avoid the attention of the government."
Page 48, Lines 24 & 25.

2.

And I find that the reason Mr. Singh wanted to avoid
the attention of the government was to avoid detec­
tion that he was shipping illegal drugs." Page 48
line 25; and Page 49, lines 1 to 3. District Court
"With respect to the underlying sentence, I have
considered ... the nature and circumstances of the
offense, and I do agree with the government that
this is a serious structuring case." Page 50, lines
2 to 5. District Court
"And this was sophisticated structuring." Page 50,
line 8. District Court

3.

"I have also taken into consideration Mr. Signh's
history and characteristics" Page 50, lines 13 to
14. District Court
"but I do think it's very important, the deterrence"
Page 50, line 20. District Court
"Drug traffickers cannot complete what they do with­
out the support of the money people, and Mr. Singh
was one of those money people. Page 50, line 25; &
Page 51, lines 1 & 2. District Court

4.

5.
6.

"Structuring is an important part of the financial
system" Page 51, lines 4 & 5. District Court
"And I do find that a three-year sentence or 36
months in custody is sufficient but not greater than
necessary to satisfy the policies of 3553(a)...
followed by three years of supervised release." Page
51, lines 13 to 16. District Court
"I will not impose a fine."

Page 51 line 25. Court

"Let's talk about the forfeiture." Page 52, line 19

14

V.

7.

"I have considered, first of all, the nature and ex­
tent of the crime" and "how serious I think this
crime is." "I'v considered whether this violation
is related to other illegal activities. It is. And
I have considered other penalties that can be impo­
sed and the extent of harm caused." "ultimately I
am concerned that Mr. Singh hid by playing this shell
game of moving money around. It makes it particular­
ly hard to find out how much he made, how much was
laundered." Page 52, lines 21 to 25 & Page 53, lines
1 to 5. District Court

8.

"And at least some of the money being structured was
proceeds of drug trafficking." Page 53, lines 13 &
14. District Court

9.

"So I do find that the recommended forfeiture by the
government is appropriate in this case. I find that
it has a relationship to the gravity of the offense,
and at this point I will order forfeiture in the amount of $1,955,521 for Mr. Singh." Page 53, lines
15 to 19. District Court

APPELLATE COURT DECISIONS
A.

THE INITIAL APPEAL

The Defendant appealed the District Court's forfeiture
order based on the Eighth Amendment's prohibition of excessive
fines that are grossly disproportionate to the gravity of the
Defendant's offense.

Utilizing the four factors outlined in

United States v. Bajakajian, 524 U.S. 321, the Defendant pro­
vided a detailed proportionality analysis that considered the
nature of the crime, whether it was related to other illegal
activities, the punishment and fine prescribed under the Sen­
tencing Guidelines, and the harm caused.

Id. at 338-339.

Mr.

Singh also argued that other factors may be relevant to deter­
mine the harshness of a fine, including the "deprivation of
livelihood" in the proportionality analysis.

15

See; United

States v. Hantzis, 403 F.App'x 170, 172 (9th Cir. 2010); and
United States v. Levesque, 546 F.3d 78, 83 (1st Cir. 2008).
1.

NATURE OF THE CRIME
Currency seized for violations of reporting and
structuring offenses may be from legitimate sour­
ces and not used to promote a criminal enterprise.
Such is the case herein.
The appeal noted the overwhelming bulk of the funds
structured, in excess of 90 percent, were from le­
gal sources associated with Western Union transac­
tions, the sale of merchandise and packaging ma­
terials, and proceeds from shipments unrelated to
CPDs.
The Defendant pled guilty to Structuring, something
that had occurred consistently throughout the years
prior to the first shipment of CPDs.

2.

OTHER ILLEGAL ACTIVITIES
Although the District Court found that Singh had
structured to hide drug proceeds, the Defendant ar­
gued that finding defied logic. As already noted,
Singh began structuring in 2006, five (5) years be­
fore any CPDs were shipped, when he became a Western
Union agent. In addition, the dollar amount of the
proceeds received from shipping CPDs were far too
small to warrant structuring.
The Defendant also informed the Court that he had
made little or no profit from the shipment of CPDs
due to the heavily discounted shipping rate he had
charged for the pre-packaged parcels from Mexico;
a point also noted by the District Court that has
already been referenced herein on Page 13, Point
number 5. At best, the parcels contributed to the
salary of the University Avenue personnel who put
on a label and shipped the parcels via UPS.

3.

PUNISHMENT AND FINE PRESCRIBED
The statutory maximum fine is $500,000. 18 U.S.C.
§ 3571(b). The forfeiture ordered is 4 times the
statutory limit.
The Ninth Circuit looks to the Guideline range in
determining proportionality, The correct Guideline
range is from $10,000 to $100,000. U.S. Sentencing

16

Guidelines § 5E1.2(c)(3)(2014). Thus, the forfei­
ture imposed is approximately twenty times the high
end of the Guidelines ($100,000) and 200 times the
low end of the range ($10,000). As noted, the 9th
Circuit looks to the Guideline range, not the sta­
tutory maximum fine in determing proportionality.
Irrespective of the two measurements available,
the Defendant argued the forfeiture ordered is far
out of proportion to the gravity of the offense as
determined by the Sentencing Commission and Con­
gress.
4.

EXTENT OF THE HARM
The District Court noted that Singh played a very
important role in the financial system because he
was a qualified Western Union agent... and at least
some of the money being structured was the proceeds
of drug trafficking. See; Appendix E, Sentencing
Hearing, page 53, lines 8 & 9; and lines 13 & 14.

The Appellate Court for the Ninth Circuit 'Affirmed'
the District Court's forfeiture order noting that "Singh does
not dispute that his structuring activity was related to il­
licit drug proceeds.

See; Appendix A:

randum, Page 3, Lines 1 and 2.

Appellate Court Memo­

The Memorandum also referenced

the maximum guideline punishments of 71 months imprisonment
and a $100,000 fine.

Furthermore, the Court noted that a re­

porting violation causes 'significant harm' when the currency
is connected to drug trafficking,

In consideration of those

factors, the Appellate Court found the Guideline limitations
may be exceeded.
The Appellate Court also referenced the 'financial
hardship' factor raised by Singh, but declined to address the
matter.

It is important to note that the Court did Not speci­

fically identify "deprivation of livelihood" in their comments.

17

B.

THE REQUEST FOR REHEARING

The Defendant filed a timely Pro'Se request for a Re­
hearing which was accepted by the Ninth Circuit Appellate
Court.

The Defendant noted therein that in the initial ap­

peal of the District Court Order, the Appellate Court heard
facts presented by the Government and by the Counsel for Defense.

In his request for a Rehearing, Singh reasserted some

of those facts, qualified others for their misrepresentations
and introduced clarifying, or new facts, not previously pro­
vided to the Ninth Circuit panel. Request for Rehearing denied.
A summary of the significant points follow:
1.

Referencing the facts of the case, Singh clearly
identified the actual members of the organization
located in Mexico which did not include him. He
also reminded the Court that the shipments of CBD
took place in the Annex that was managed and also
operated by the man who had the only contacts to
the Mexican organization. These facts were corroborated by the only courier the border agents
caught bringing CPDs into the United States.

2.

The Defendant disputed that he intentionally ever
spread the CPD shipments between UPS, FedEx and
the Post Office to conceal the presence of drugs.
Rather, that 98 percent of all CPD shipments were
made through UPS with only a few being routed to
other shipping services due to their unique loca­
tion. The Defendant also disputed that he ever
received any specific warning from UPS suggesting
that he was in fact shipping illegal contraband
and that he should cease doing so.

3.

The Defendant corrected the amount of CPD ship­
ments made through the University Avenue Annex
and adjusted the amount of proceeds and profits
accordingly, which were dramatically lower than
the amount alleged by the Government,
The Defendant also provided new ratios of the actual
CPD shipments for proportional comparisons to
the level of total shipments and structured funds.

18

4.

Singh clarified that he made two (2) daily depo­
sits for his two Annexes for immediate safety of
his cash receipts and to have sufficient funds
in his business account to cover the Western
Union withdrawals. He further stated that each
deposit was a consolidation of both Annex loca­
tions which was equal to one daily deposit for
each site.

5.

Singh explained that he had a high number of dif­
ferent bank accounts to cover his two business
location, a Western Union account, an investment
• account and a personal account at each bank.
Furthermore, Singh had to open new accounts at
two new banks during the ivestigation because the
banks notified him that they would no longer ac­
cept his business due to the investigations.
6. Singh identified the numerous inconsistencies,
contradictions and misleading elements within
his plea.
7. Singh reminded the Appellate Court that both it,
and the District Court, were conveniently ignoring
the truth of when the structuring began. Each
court asserted that he began structuring to hide
the proceeds from the shipping fees of the CPDs.
But that conclusion only works if the courts use
the period during the investigation and not the
entire five (5) years preceding the first shipment
of CPDs.when the structuring began and continued.
But these two lower courts do not want to see the
factual evidence because that would disprove one
of their key allegations that increases the sever­
ity of the Defendant's crime and allows one of the
meager justifications these courts are using to
seize all of Singh's assets.
Once again, Singh did NOT structure funds to hide
any illegal activity. The structuring began inno­
cently in 2006 because Mr. Singh was under the be­
lief he was exempt because he had established MSB
(Merchant Service Banking) which excluded him from
having to file any reports.
8.

Finally, there simply is no motive for Singh to have
participated in shipping any controlled substances.
He was not part of the drug organization and did not
actively participate in their shipment from the An­
nex operated and managed by the individual who did
plead guilty to a drug offense. Nor did Singh ever

19

8.

Continued
receive any monetary benefit from these shipments.
There were no profits from the actual shipments .
and there is no evidence that he ever received any
additional reward for the very high risk he would
have been taking had he known.

The Defendant summarized all the above information in
his argument and re-examined the proportionality analysis to
include all of the factual evidence from the case.

The De­

fendant argued that the District Court failed to consider any
of the constitutional issues before ordering a 100 percent
forfeiture of the funds structured, to include:
1.
2.

3.
4.
5.

The Defendant's degree of culpability considering
all the factual evidence.
The degree of illegal activities compared to the
amount of legitimate business conducted as a ratio
to determine a fair level of forfeiture.
The amount of benefit reaped by the Defendant in
the shipment of CPDs
The Defendant's lack of any financial reward or
other motive to engage in illegal activity.
The requirement of the court to perform a factspecific evaluation of all the circumstances of
the illegal acts to include the actual extent of
the defendant's criminal activities

Cases referenced included:
1.

United States v. Busher, 817 F.2d, 1409 (9th Cir.
1987)

2.

Solem v. Helm, 463 U.S. 277, 103 S.Ct. 3001 (1983)
United States v. Bieri, 21 F.3d 819 (8th Cir.
1993)
United States v. Bajakajian, 524 U.S. 321

3.
4.
5.

United States v. Umagat, 998 F.2d, 770 (9th Cir.
1992)

6.

United States v. Bibbero, 749 F.2d 581 (9th Cir.
1984)

20

SUMMARY OF THE ARGUMENT
The Excessive Fines Clause of the Eighth Amendment to the Uni­
ted States Constitution requires that a forfeiture not be grossly
disproportionate to the gravity of the defendant's offense.

In

Bajakajian, 524 U.S. 321 (1998), the Supreme Court established *
four (4) factors for courts to consider within a proportional an­
alysis that included the following:
1.

The Nature and Extent of the Crime

2.
3.
4.

Other Illegal Activities
The Punishment and Fine Prescribed
The Extent of the Harm done

In addition, in Bajakajian the Supreme Court noted that the
Excessive Fines Clause was "taken verbatim from the English Bill of
Rights of 1689" which referenced the Magna Carta as "the law of the
land" wherein a fine "should be proportional to the offense and that
they should not deprive a wrongdoer of his livelihood."

Id. at 335.

Applying the four (4) factors noted above, it is apparent that
the lower courts failed to appropriately perform a proportional an­
alysis that would have determined a forfeiture that was proportion­
ally relative to the known facts of the case, to include the culpa­
bility of the defendant, the degree of illegal activities compared
to the amount of legitimate business conducted, the amount of bene­
fit reaped by the defendant, the lack of motive to engage in any
criminal acts, the defendant's intent, the statutory and guideline
limitations on fines, the ratio of the sentence imposed to the up­
per sentence guideline and the deprivation of livelihood issue.

21

The District Court ordered, and the Ninth Appellate Court af­
firmed, a 100 percent forfeiture of the funds involved in the fin­
ancial structuring of business proceeds.

These proceeds, totalling

$2,955,521, included approximately $140,000 of payments for the ship­
ment of Controlled Pharmaceutical Drugs which netted a profit of less
than $10,000 over a 25 month period.

Of the total amount of the for­

feiture ordered, Mr. Singh was ordered to pay $1,955,521, and his
Corporation was ordered to pay the remaining $1 million.
Beyond the proportional analysis issues summarized above, the
courts failed to adequately explain, justify or address the facts
that the forfeiture ordered against Mr. Singh is 4 times the Statu­
tory limit and 20 times greater than the recommended Guideline fine.
Given these facts, a 100 percent forfeiture, totalling nearly
$2 million, is grossly disproportions! to the crime and must be va­
cated and reduced

ARGUMENT
I.

REASONS FOR GRANTING THE WRIT
The Supreme Court, the Ninth Circuit and its sister circuits

have all provided case precedent that have established recognizable
points of law regarding appropriate forfeiture limitations in all
categories except the deprivation of livelihood consideration.
The deprivation of livelihood issue is more complex because
there is a lack of consensus, or collective opinion amongst the
circuits.

This conflict between the circuits makes this case an

ideal vehicle to resolve the circuit split, which is critically im­
port to the fair administration of justice.

22

II. ARGUMENTS TO THE QUESTIONS PRESENTED
A.

DEPRIVATION OF LIVELIHOOD

Within the Opening Brief of his Direct Appeal to the Ninth
Circuit Court of Appeals, the Defendant argued for the inclusion
of the 'deprivation of livelihood' within the proportional anal­
ysis evaluation, citing United States v. Hantzis, 403 F. App'x 170
172 (9th Cir. 2010) and United States v. Real Prop. Located in El
Dorado City, 59 F.3d 974, 985-86 (9th Cir. 1995), abrogated in
part by Bajakajian, 524 U.S. 321; and United States v..Levesque,
546 F.3d 78, 83 (1st Cir. 2008)[Excessive Fines Clause analysis
should.'consider whether forfeiture would deprive the defendant of
his or her livelihood.'].

Within the appeal, Singh argued that

the forfeiture far exceeded his net worth and after selling all of
his assets he would still be over $500,000 in debt.

This, combined

with his 59 years of age, three (3) years of incarceration and his
various health problems, to include diabetes, would preclude him
from being able to start a new company which would be the only way
for him to earn a meaningful wage with his criminal felony in his
record.

See; Appendix F, Opening Brief, pages 32 & 33.
In the Ninth Circuit's opinion in the Hantzis case (Id.)

the three judge panel opined the court would consider such an ar­
gument that had been drafted specifically to address the issue of
livelihood deprivation, citing Bajakajian at 335.

However, in its

response to this case, the Ninth Circuit panel improperly chose to
ignore this aspect of Singh's appeal and appeared to consolidate

23

this issue into a generalized response to financial hardship, which
it then declined to address.

Because this argument was timely made

and preserved in the defendant's original appeal, Singh raises this
issue once again in this Writ for Certiorari.
As previously noted on page 21 of this document, the Supreme
Court noted in the Bajakajian Case (Id.) that the Eighth Amendment
was derived literally from the English Bill of Rights.of 1689,
which relied^ heavily on the Magna Carta,

Within that document, the

lords of England recognized the amount of excessive and exorbitant
fines as being unacceptable and decried that they should be both
proportional to the offense, and that they should not deprive a
wrongdoer of his livelihood.

See; Bajakajian (Id.) at 335.

The issue associated with the deprivation of livelihood is
complex because there is conflict between various circuits.

The

Eighth and Eleventh Circuits have held that the Eighth Amendment
bars inquiry into a defendant's personal circumstances, although
these circuits have not distinguished such an inquiry from the
question of whether a forfeiture would destroy a defendant's livelihood.

See; United States v. Smith, 656 F.3d 821, 828 (8th Cir.

2011); and United States v. Dieter, 198 F.3d 1284, 1292 n.ll (11th
Cir. 1999).

As noted in Hantzis (Id.), the Ninth appears willing

to consider a question of the defendant's livelihood, although it
declined to do so in the appeal of this case,

However, the First

and Second Circuits have concluded that the deprivation of liveli­
hood should be included within the proportionality analysis with

24

the standard four factors noted on page 21 of this document.

In

the First Circuit, See; United States v. Fogg, 666 F.3d 13, 19
(1st Cir. 2011):

"Excessive Fines inquiry runs deeper where a de­

fendant raises the issue of deprivation of livelihood."

"[A] court

should also consider whether forfeiture would deprive the defen­
dant of his or her livelihood.

II II

Citing United States v. Levesque

546 F.3d @ 83 (1st Circuit, 2008) (referencing a 3 part test for
gross disproportionality described in United States v. Heldemen,
402 F.3d 220, 223 (1st Cir. 2005), where the court stated: "However
.:. this test is not the end of the inquiry under the Excessive
Fines Clause." Beyond the 3 factors described in Heldeman (Id.),
a court "should also consider whether forfeiture would deprive the
f

defendant of his or her livelihood"; Citing: U.S. v. Jose, 499 F.
3d @ 113 - Reference to Bajakajian (Id.) at 334.).
In the Second Circuit, See; United States v. Viloski, 814 F.
3d 104 (2nd Cir. 2016) .

"Indeed, Bajakajian itself leads us to

conclude that one additional factor is especially important .... a
penalty for some offense - "not be so large as to deprive [an of­
fender] of his livelihood.

It It

at 110.

"As the First Circuit has

recognized, hostility to livelihood-destroying fines became "deep­
ly rooted" in Anglo-American constitutional thought and played an
important role in shaping the Eighth Amendment."
(Id.,at 84).

Citing, Levesque

"Whether a forfeiture would destroy a defendant's

livelihood is a component of the proportionality analysis, not a
separate inquiry."

at 111 and 112 (Id.), Viloski.

25

Furthermore, in Viloski, the Appellate Court addressed the
other personal factors of an individual that can relate to the de­
privation of livelihood at 112; and 113; (Id.):
"We also emphasize that asking whether a forfeiture would de­
stroy a defendant's future livelihood is different from con­
sidering as a discrete factor a defendant's present personal
cicumstances, including age, health and financial situation.
While hostility to livelihood-destroying fines is deeply root­
ed in our constitutional tradition, consideration of personal
circumstances is not." Citing Bajakajian at 335-36. (@ 112)
"It is possible, of course, that a person's health and finan­
cial condition might bear on his ability to make a living.
Personal circumstances might thus be indirectly relevant to
a proportionality determination, to the extent that those cir­
cumstances, in conjunction with the challenged forfeiture,
would deprive the defendant of his livelihood. Our holding
bars only the separate consideration of personal circumstances
as a distinct factor.
(@ 113).
"Bearing that limited,role in mind, we hold that courts may not
consider as a discrete factor a defendant's personal circum­
stances, such as age, health or present financial condition,
when considering whether a criminal forfeiture would violate
Excessive Fines Clause."[Viloski - Id. @ 112]
As noted in the original appeal, as in this request for a Writ, the
defendant's livelihood is presented with the 100 percent forfeiture
of $1,955,521, and his situation at the end of a three year term of
incarceration, or in the future tense, to include his age and dia­
betes, which are permanent and not subject to change after time.
The Court should grant certiorari in this case to resolve the
circuit split regarding whether a deprivation of livelihood should
be included within the proportionality analysis, to include those
future personal circumstances the Court deems relevant, in an eval­
uation/determination of whether a forfeiture is considered to be
excessive, and therefore unconstitutional, under the Eighth Amend­
ment to the Constitution.

26

B.

PROPORTIONALITY ANALYSIS
ELEMENT'S IN A 'FACT SPECIFIC' EVALUATION TO DETERMINE
THE GRAVITY OF A CRIME

"The text and history of the Excessive Fines Clause demon­
strates the centrality of proportionality to the excessiveness in­
quiry; nonetheless, they provide little guidance as to how disproportional a punitive forfeiture must be to the gravity of an of­
fense in order to be "excessive"".

See; Bajakajian (Id.) at 335.

In order to bridge the open issues related to proportionality, the
Court identified the four non-exclusive factors for the lower
courts to analyze, as noted on page 21 of this document.

The Court

further referenced that any "judicial determination regarding the
gravity of a particular criminal offense will be inherently impre­
cise." Id. at 336.

Therefore, the Court adopted the standard of

'gross disproportionality' as articulated in their previous case
precedents for Eighth Amendment reviews; referencing Solem v. Helm
Supra, at 288, Id.; and Rummel v. Estelle, 445 US 263, 271, 100 S.
Ct. 1133 (1980).

Thus, gross disproportionality is the imbalance

between the gravity of the offense and the amount of forfeiture.
Thus, our focus must be on determining the gravity, or severity of
the offense.
Although the Supreme Court provided some direction in Baja­
kajian, the four factors presented are on too broad a scale to be
applied in an accurate and consistent manner at the District Court
level, and used exclusively for review by the Appellate Courts.
Certainly, a review of the 'nature and extent' of the crime, and

27

whether the violation involved other illegal activities, are twoof.the factors that, on a broad basis, help define the severity of
offense.

But a more detailed set of components would help stratify

the actions of individuals by layered degrees to establish a more
accurate assessment of a defendant,'s culpability.
As this Court noted in Bajakajian, the members of the Court
in Solem (Id.) addressed this issue.

"Turning to the culpability

of the offender, there are again clear distinctions that courts may
recognize and apply."

"Most would agree that negligent conduct is

less serious than intentional conduct."

Id. at 293.

The Court then

listed "criminal acts in ascending order of seriousness • • •
1)
2)
3)
4)
5)

Negligent Acts
Reckless Acts
Knowing Acts
Intentional Acts
Malicious Acts

"A court# of course, is entitled to look at a defendant's motive in
committing a crime."

Id. at 293.

Solem.

Had the Lower.Courts in this case been directed to utilize
these more detailed components, the result would have been far dif­
ferent.

In ordering a 100 percent forfeiture, the District Court

improperly categorized the defendant with performing a malicious
act.

Even a nominal review of the evidence would easily dispute

this consideration.

Based on the evidence available, and taking in­

to consideration the ambiguities and inconsistencies found in the
defendant's plea agreement, degree of the criminal act at best is
merely negligent, and at worst, reckless, but not malicious.

28

Alex Nava, Mr. Singh's full time employee was the Manager .
and operator of the University Avenue store where all the alleged
shipment of CPDs were made throughout the period of the investiga­
tion .

It.was\Mr. Nava who. was contacted by members of a Mexican

drug organization, the members which had close association with
Mr. Nava's family and friends.

And it was Mr. Nava who negotiated

the shipping deal and obtained the drug owners a discounted ship­
ping price, arranged for the shipment of parcels from Mexico, and
was even caught bringing the pre-packaged parcels into the United
States from Mexico.after he had helped package them.

For this, Mr.

Nava was charged with and convicted of the drug crime, not Singh.
Singh's only offense was being a hard working small businessman
who trusted an employee.

But, that should not have been an act

that destroyed the life of his family.
It is too obvious that the lower courts were able to look
past all of the evidence and to show the defendant as an active
participant who knew about and willingly participated in a scheme
to ship drugs throughout the United States.

It does not the evi­

dence, nor the character of the individual.
And finally, there was no motive, as also referenced by
the Solem Court.

No financial gain, no use of any drugs, and no

contact with anyone in the drug organization other than Mr. Nava,
his full time employee.

This information alone causes a wave.

Why would anyone participate in a drug operation and not receive
some kind of financial benefit?

It fails to make rational sense.

29

J

C.

PROPORTIONALITY ANALYSIS
THE USE OF A RATIO THAT COMPARES THE AMOUNT OF FUNDS
TAINTED BY OTHER CRIMINAL ACTS
TO THE AMOUNT OF
LEGITIMATE FUNDS STRUCTURED

Mr. Singh pled guilty to one count of Structuring Financial
transactions under 31 U.S.C. 5324(a)(3) and (d)(2).

In addition,

the government alleged that Singh was also involved in the ship­
ment of CPDs from his Postal Annex.

By itself, the Structuring of­

fense would have involved a minimum fine and little, or no period
of incarceration.

However, the severity of the offense was increa­

sed dramatically by the District Court under the relevant conduct
provisions associated with the alleged drug trafficking activity.
Accordingly, the modest amount of fine and incarceration also in­
creased with the Court ordering a 36 month sentence and the for­
feiture of 100 percent of the funds involved in the structuring
which totalled $2,955,521, of which, $1,955,521 was allocated to
the Defendant.
(

Whatever evidence the government has is circumstantial to

Mr. Singh's involvement in the shipment of CPDs.

This court is a-

ware of the history of the case and can judge the level of the De­
fendant's active and knowing participation,

Regardless, the amount

of forfeiture ordered against Mr. Singh is very disproportionate to
whichever level of activity is determined.
Throughout the period of the investigation, approximately $5
million of cash flowed through the Defendant's business accounts;
of which, the government alleges nearly $3,million was structured.

30

Of these funds, it is estimated that $140,000 of cash was paid to
the Defendant's Shipping Annex for the shipment of CPDs, of which
there was approximately $5,000 in profits.

The ratio of proceeds

to total funds received, and to the amount of funds structured are
3 and 5 percent respectively.

The ratio of profits to the same

criteria are 1/10 and 2/10 of one percent respectively,

Thus, no

matter how the defendant's crime is viewed, or the level of culpa­
bility placed on him, the punishment is disproportionate to the
crime.
The facts in the instant offense is strikingly similar to
another Ninth Circuit case, United States v. Busher, 817 F.2d 1409.
In establishing a prima facie showing, Busher successfully argued
that his forfeiture was excessive because it was based on business
transactions deemed fraudulent which represented only 8 percent of
his total enterprise.

Irrespective, under the RICO statute that he

was found guilty of, the District Court ordered a 100% forfeiture of
his business, to include some real estate owned by the enterprise.
The Ninth Circuit acknowledged that the RICO laws (18 U.S.C. 1961
through 1963) were broad and inflexible, but it cautioned, "no
penalty is per se constitutional" and "Since RICO's forfeiture pro­
vision is quite literally without limitation, it may well exceed
constitutional bounds in any particular case."
1414, citing Solem (Id.) at 290.

Busher (Id.) at

The Defendant faces the same ex­

cessiveness of forfeiture under 31 U.S.C. 5317(c)(1) which also
requires the entire amount of proceeds structured be forfeited.

31

Although 31 U.S.C. § 5317 requires the court "shall order de­
fendant to forfeit all property, real and personal, involved in the
offense, and all property traceable thereto..." a court must still
perform a proportionality test to determine the consitutionality of
a penalty.

"Even though the statute provides no discretion, the

district court must avoid unconstitutional results by fashioning
forfeiture orders that stay within constitutional bounds."

Busher

(Id.) at 1415.
James Busher was convicted of a number of charges to include
Mail Fraud (18 USC § 1341), Submitting false Statements (18 USC §
1001), Presenting false claims (18 USC §;287), Tax Evasion (26 USC §
7201) and Submitting false Tax Returns (26 USC § 7206(1)).

In com­

parison, the Defendant was convicted of one far less offensive
crime - Structuring, with [NO] additional convictions, but only an
allegation that he was aware of the controlled substance shipments.
"The District Court must, consistent with Solem, consider the harsh­
ness of the penalty in light of the gravity of the offense ... and
should look at the defendant's culpability."
Citing Solem (Id.) at 292.

Busher (Id.) at 1415;

Although the Defendant's single conviction

was far fewer than Busher's, and individually far less egregious,
the Ninth Circuit nevertheless denied Singh the relief it awarded
Busher.
This Court has the opportunity to affirm the findings in
Busher (Id.) from the Ninth Circuit, wherein the Appellate Court
ruled that a court "may consider the degree to which the enterprise

32

operated by the defendant is infected by criminal conduct.

The

court should be reluctant to order forfeiture of a defendant's en­
tire interest in an enterprise that is essentially legitimate and
where he has committed relatively minor [] violations not central
to the conduct of the business and resulting in relatively little
illegal gain in proportion to its size and legitimate income."
Busher (Id.) at 1415.
Although the defendant's case runs parallel to the Busher
case, the findings were far different.

Based on the forfeiture

ordered against Mr. Singh, the amount is grossly disproportionate
to the offense.

This Court is urged to include the analysis of

comparative ratios, as demonstrated herein, to the determination of
Excessive Fines, to ensure no forfeiture is disproportionate to the
offense committed, and "limit the forfeiture to such portion of the
interest it deems consistent with these principles."

Busher (Id.)

at 1415.
D.

PROPORTIONALITY ANALYSIS
THE COMPARATIVE RELATIONSHIP BETWEEN THE SENTENCE IMPOSED
AS COMPARED.TO THE UPPER GUIDELINE OR STATUTE LIMITATION
AND
THE AMOUNT OF FORFEITURE ORDERED AS COMPARED TO THE .
AMOUNT OF FUNDS STRUCTURED

When considering the type and kind of punishment in a Struc­
turing Offense, the District Courts may impose a sentence of incar­
ceration, a Fine, and/or a Forfeiture.

In the instant offense, the

court chose a 36 month incarceration and a 100 percent forfeiture
of all funds structured.

33

The Guideline sentencing range for the Defendant was 57 to
71 months, or an upper range of 71 months, and a Statutory limit
of 10 years.

Thus, the ratio of time imposed to the Upper Guide­

line limit was 36/71 or 51 percent; and the Statutory limit was
36/120 or 30 percent.

The sentence imposed was determined to be

the fair amount of incarceration based on the gravity of the crime
and the sentence imposed within the district for other defendant's
convicted of the same kind of offense.

A summary review of the

findings suggests the court believed the Defendant should be given
a period of incarceration somewhere between one-third and one-half
of the upper Guideline and Statute sentencing limitations, respect
tively.
However, the amount of the forfeiture ordered was 100 percent
of the funds structured, which the court based upon the seriousness
of the crime.

The District Court should not be able to vacillate

between degrees of culpability and the levels of severity when de­
termining the amount of punishment by different category.
it is a serious crime

Either

which requires the maximum level of punish­

ment, or the crime is less than that, as noted in the amount of
incarceration ordered.
In the instant offense, both the courts and the government
spent considerable time reviewing the amount of time that would be
appropriate given the circumstances noted above.

Although the

government recommended a 40 month period of incarceration, the Dis­
trict Court ultimately chose 36 months which was a four month, or

34

10 percent downward departure from the government's request; a 35
month, or 49 percent downward departure from the Guideline's Upper
range limit; and an 84 month, or 70 percent downward departure from
the Statutory limit.
This kind of wholesale leniency was not awarded to the De­
fendant in the forfeiture area, nor was there an appreciable time
spent reviewing the available options by the District Court.

Nor

did the Government spend the time that should have been spent on
such a critical issue.

On page 29 of the Sentencing Hearing, in

Appendix E, the government, in answer to the question from the court
of where the forfieture amount came from, answered that it was the
amount alleged in the indictment.

See; page 29, lines 14 to 19.

Furthermore, the government admitted that they "would be put to our
paces to argue the forfeiture beyond a reasonable doubt."
29, lines 1 and 2.

Id. page

This suggests the government was simply grabbing

an amount, a $3 million amount, from thin air.

Not a very reasur-

ring statement that either the court or the government knew whether
the requested amount of forfeiture was, in fact, a fair amount.
A further review of the court's comments in subsequent pages
of the Sentencing Hearing continues to reveal the court had very
little sense of the dynamics of selecting a proper forfeiture order.
On page 32 of Sentencing Hearing (S.H.), Appendix E, the court
once again stumbles and must ask the government for confirmation
about the correlation between a fine and forfeiture - both ultim­
ately, and incorrectly agreeing there was no correlation.

35

Page 32,

lines 8 through 13.

Additionally, lines 21 to 25, page 32; accom­

panied by lines 1 to 17 on page-33 reflect a continuing ramble of
impropable forfeiture scenarios supposedly based on legal fact.
On page 34 of the S.H •

9

Appendix E, lines 1 to 21, the

court continues to seek, literally ask the government what it wanted
the court to do on the forfeiture issue.

There was no scholarly

discussion on the merits of the forfeiture, it's relationship to
either the elements of the crime or the gravity of the offense.
was there any kind of reconciliation to the sentence.

Nor

Rather, it

was about what the government wanted, by a court seemingly unaware
of the legal and technical issues involved and in total reliance on
the adversary of the defendant.
S.H •

9

Not surprisingly, on page 53 of the

lines 15 to 19, the court completely acquiesces to the whim

of the government and orders the exact amount suggested by the
government; an

amount completely out of proportion to the sentence

imposed, the gravity of the offense, or the relationship to the
legal versus the illegal activity occurring within the defendant's
small business.
The Defendant appreciates the Court's patience in tracking
this dialogue through the Sentencing Hearing, but it was done to
convey to the Court just how little analysis is required of the
District Courtisi* „

Analysis, meaning real numbers and real issues of

objectivity that would require^ a court to challenge the evidence in
a case rather than just pander to the government for guidance and
an answer that is so clearly disproportional to the offense.

36

Analytical prerequisites that would give the defendants and the
Appellate Courts the tools to more easily define the elements of
proportionality to replace the vagueness and the uncertainties
that are currently present.
The Defendant urges this Court to adopt a finding that re­
quires the lower courts to reconcile any differences in degrees of
culpability and the severity of the offense, as they are applied to
a defendant's punishment, to ensure continuity and consistency be­
tween the imposition of incarceration, amount of fine imposed and
the forfeiture ordered.
Based on the amount of sentence imposed for incarceration,
the defendant believes the 100 percent forfeiture, totalling $2
million is grossly disproportionate to the offense.

CONCLUSION
The Court should grant the petition for a writ of certior­
ari to resolve the.issues associated with the conflict between the
circuits, and to provide more specificity to the proportional anal­
ysis.
Respectfully Submitted,

LAHKWINDER SINGH
Register No. 55578-298
Appearing Pro' Se
Federal Prison Camp
3705 West Farm Road
Lompoc, Ca 93436

37‘

